                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 14-01293-243




    Combined Assessment Program 

           Review of the 

        VA New York Harbor 

         Healthcare System 

        New York, New York 





August 14, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                            CAP Review of the VA New York Harbor Healthcare System, New York, NY



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA New York Harbor Healthcare System
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 SDS            same day surgery
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                    CAP Review of the VA New York Harbor Healthcare System, New York, NY



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishments......................................................................................                   2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Medication Management......................................................................................... 8

  Coordination of Care ............................................................................................... 9

  Acute Ischemic Stroke Care ................................................................................... 10

  CLC Resident Independence and Dignity ............................................................... 12

  MRI Safety .............................................................................................................. 14


Appendixes
  A. Facility Profile ....................................................................................................      16

  B. Strategic Analytics for Improvement and Learning ............................................                              17

  C. VISN Director Comments ..................................................................................                  20

  D. Facility Director Comments ...............................................................................                 21

  E. OIG Contact and Staff Acknowledgments .........................................................                            27

  F. Report Distribution .............................................................................................          28

  G. Endnotes ...........................................................................................................       29





VA OIG Office of Healthcare Inspections
                            CAP Review of the VA New York Harbor Healthcare System, New York, NY



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings. We conducted the review the week of June 9, 2014.

Review Results:          The review covered seven activities.                  We made no
recommendations in the following two activities:

 Medication Management

 Coordination of Care

The facility’s reported accomplishments were achievements for recovery from
Superstorm Sandy and recognition with Gold Star status from the New York City
Department of Health and Mental Hygiene for a comprehensive smoking cessation
program.

Recommendations: We made recommendations in the following five activities:
Quality Management: Consistently complete actions from peer reviews, and report
them to the Peer Review Committee. Ensure the Cardiopulmonary Resuscitation
Committee reviews each resuscitation code episode. Require the Surgical Review
Group to meet monthly and include the Chief of Staff as a member.

Environment of Care: Ensure all designated same day surgery and post-anesthesia
care unit employees receive bloodborne pathogens training annually. Require that
Brooklyn campus eye clinic examination room sinks have foot controls, long-blade
handles, or automatic no touch sensors. Ensure the Manhattan campus eye clinic has
glasses/goggles of the appropriate optical density available that are specifically marked
for each type of laser.

Acute Ischemic Stroke Care: Complete and document National Institutes of Health
stroke scales for each stroke patient. Screen patients for difficulty swallowing prior to
oral intake. Provide printed stroke education to patients upon discharge. Ensure
employees involved in assessing and treating stroke patients receive the training
required by the facility. Require that patients presenting with stroke symptoms receive
laboratory tests for cardiac markers.

Community Living Center Resident Independence and Dignity:             Complete and
document restorative nursing services according to clinician orders and/or residents’
care plans. Document resident progress towards restorative nursing goals, modify
restorative nursing interventions as needed, and document the modifications.
Document the reasons for discontinuing or not providing restorative nursing services.
Ensure employees who perform restorative nursing services receive training on range of
motion and resident transfers.



VA OIG Office of Healthcare Inspections                                                        i
                            CAP Review of the VA New York Harbor Healthcare System, New York, NY


Magnetic Resonance Imaging Safety: Ensure radiologists and/or Level 2 magnetic
resonance imaging personnel document resolution in patients’ electronic health records
of all identified magnetic resonance imaging contraindications prior to the scan.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–26, for the full
text of the Directors’ comments.) We consider recommendation 5 closed. We will
follow up on the planned actions for the open recommendations until they are
completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        ii
                            CAP Review of the VA New York Harbor Healthcare System, New York, NY



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Acute Ischemic Stroke Care

   	 CLC Resident Independence and Dignity

   	 MRI Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
April 21, 2014, and was done in accordance with OIG standard operating procedures
for CAP reviews.     We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                       1
                            CAP Review of the VA New York Harbor Healthcare System, New York, NY


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the VA New York Harbor Healthcare System, New York, New York,
Report No. 12-00710-85, January 17, 2013).

During this review, we presented crime awareness briefings for 620 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
294 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                        Reported Accomplishments 

Superstorm Sandy Evacuation and Recovery
When Superstorm Sandy headed towards the Manhattan campus in October 2012, the
facility’s leadership proactively ensured the safe evacuation of 127 inpatients and all
employees and arranged continued care for 20,000 outpatients at nearby VA facilities
and community based outpatient clinics. Located in the flood zone just two blocks from
the East River, the facility sustained catastrophic damage. Its utilities, fire suppression
system, elevators, mechanical and electrical systems, primary care clinics, and MRI
machine were severely damaged. After the water receded, a “Stay Team” provided
emergency safety and protective services while emergency triage staff redirected
patients to health care services at locations other than the damaged Manhattan
campus. In addition, mobile examination vans were activated to provide basic services,
such as vaccinations, blood-pressure checks, and laboratory work. Reintegration of
patients and staff was accomplished through an organized and phased process with
attention to safety of life, major equipment, and building structures. Full reintegration
was achieved in May 2013.

Smoking Cessation Program
The facility was awarded Gold Star status as part of the New York City Department of
Health and Mental Hygiene’s Tobacco-Free Hospitals Campaign. The Gold Star
designation was awarded for the facility’s comprehensive smoking cessation program
and demonstrated best practices related to the screening and treatment of patients for
tobacco use. The facility also has the distinction of being the first hospital in New York
City to achieve this award.




VA OIG Office of Healthcare Inspections                                                       2
                                      CAP Review of the VA New York Harbor Healthcare System, New York, NY



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                    Areas Reviewed                                        Findings
      There was a senior-level committee/group
      responsible for QM/performance improvement
      that met regularly.
       There was evidence that outlier data was
         acted upon.
       There was evidence that QM, patient
         safety, and systems redesign were
         integrated.
 X    The protected peer review process met              Six months of PRC meeting minutes reviewed:
      selected requirements:                              Of the 31 cases with actions expected to be
       The PRC was chaired by the Chief of Staff           completed, 7 (23 percent) were not reported
         and included membership by applicable              to the PRC.
         service chiefs.
       Actions from individual peer reviews were
         completed and reported to the PRC.
       The PRC submitted quarterly summary
         reports to the MEC.
       Unusual findings or patterns were
         discussed at the MEC.
      Focused Professional Practice Evaluations for
      newly hired licensed independent practitioners
      were initiated and completed, and results were
      reported to the MEC.
 NA   Specific telemedicine services met selected
      requirements:
       Services were properly approved.
       Services were provided and/or received by
         appropriately privileged staff.
       Professional practice evaluation information
         was available for review.




VA OIG Office of Healthcare Inspections                                                                   3
                                      CAP Review of the VA New York Harbor Healthcare System, New York, NY


NM               Areas Reviewed (continued)                                 Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 X     The process to review resuscitation events         Twelve months of Cardiopulmonary
       met selected requirements:                         Resuscitation Committee meeting minutes
        An interdisciplinary committee was               reviewed:
          responsible for reviewing episodes of care       There was no evidence that the committee
          where resuscitation was attempted.                 reviewed each resuscitation episode.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            The Surgical Review Group (Operative and
       requirements:                                        Other Procedures Review Committee and
        An interdisciplinary committee with                Operating Room Subcommittees) only met
          appropriate leadership and clinical               7 times over the past 12 months.
          membership met monthly to review surgical
                                                          Seven months of surgical review group meeting
          processes and outcomes.
                                                          minutes reviewed:
        Surgical deaths with identified problems or
                                                           The Chief of Staff was not a member.
          opportunities for improvement were
          reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                   4
                                      CAP Review of the VA New York Harbor Healthcare System, New York, NY


NM              Areas Reviewed (continued)                                  Findings
       The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
          membership met at least quarterly to review
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that actions from peer reviews
are consistently completed and reported to the Peer Review Committee.

2. We recommended that processes be strengthened to ensure that the Cardiopulmonary
Resuscitation Committee reviews each resuscitation code episode.

3. We recommended that the Surgical Review Group meet monthly and include the Chief of
Staff as a member.




VA OIG Office of Healthcare Inspections                                                                 5
                                      CAP Review of the VA New York Harbor Healthcare System, New York, NY


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

At the Brooklyn and Manhattan campuses, we inspected medical, surgical, and intensive care
units; SDS; the PACU; the emergency department; and the primary care, endoscopy, podiatry,
and eye clinics. At the St. Albans campus, we inspected six CLC units and the primary care,
wound care, and eye clinics. Additionally, we reviewed relevant documents, conversed with
key employees and managers, and reviewed 25 employee training records (10 SDS, 10 PACU,
and 5 eye clinic). The table below shows the areas reviewed for this topic. The areas marked
as NM did not meet applicable requirements and needed improvement. Any items that did not
apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                                Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                 
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
          Areas Reviewed for SDS and the PACU
 X     Designated SDS and PACU employees                  Three employees, one SDS and two PACU,
       received bloodborne pathogens training              did not receive bloodborne pathogens training
       during the past 12 months.                          during the past 12 months.
 NA    Designated SDS employees received medical
       laser safety training with the frequency
       required by local policy.
       Fire safety requirements in SDS and on the
       PACU were met.
       Environmental safety requirements in SDS
       and on the PACU were met.



VA OIG Office of Healthcare Inspections                                                                 6
                                      CAP Review of the VA New York Harbor Healthcare System, New York, NY


NM        Areas Reviewed for SDS and the PACU                               Findings
                          (continued)
 NA    SDS medical laser safety requirements were
       met.
       Infection prevention requirements in SDS and
       on the PACU were met.
       Medication safety and security requirements
       in SDS and on the PACU were met.
       Auditory privacy requirements in SDS and on
       the PACU were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
       Designated eye clinic employees received           
       laser safety training with the frequency
       required by local policy.
 X     Environmental safety requirements in the eye       At the Brooklyn campus, 11 of
       clinic were met.                                    14 examination room sinks did not have foot
                                                           controls, long-blade handles, or automatic no
                                                           touch sensors.
       Infection prevention requirements in the eye
       clinic were met.
       Medication safety and security requirements
       in the eye clinic were met.
 X     Laser safety requirements in the eye clinic        At the Manhattan campus, one of three laser
       were met.                                           safety glasses was missing, and the
                                                           remaining two safety glasses were not
                                                           specifically marked to identify the
                                                           corresponding laser.
       The facility complied with any additional          
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

4. We recommended that processes be strengthened to ensure that all designated same day
surgery and post-anesthesia care unit employees receive bloodborne pathogens training
annually and that compliance be monitored.

5. We recommended that the Brooklyn campus eye clinic examination room sinks have foot
controls, long-blade handles, or automatic no touch sensors.

6. We recommended that the Manhattan campus eye clinic have glasses/goggles of the
appropriate optical density available that are specifically marked for each type of laser and that
compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    7
                                      CAP Review of the VA New York Harbor Healthcare System, New York, NY


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 34 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                      Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 8
                                      CAP Review of the VA New York Harbor Healthcare System, New York, NY




Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of 34 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                      Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 9
                                      CAP Review of the VA New York Harbor Healthcare System, New York, NY


Acute Ischemic Stroke Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke.e

We reviewed relevant documents, the EHRs of 29 randomly selected patients who experienced
stroke symptoms, and 35 employee training records (10 emergency department, 15 intensive
care unit, 6 inpatient unit, 2 speech pathology, and 2 occupational therapy), and we conversed
with key employees. We also conducted onsite inspections of two emergency departments,
three critical care units, and five acute inpatient units. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       The facility’s stroke policy/plan/guideline
       addressed all required items.
 X     Clinicians completed the National Institutes of     Eighteen of the 29 EHRs did not contain
       Health stroke scale for each patient within the      documented evidence of completed stroke
       expected timeframe.                                  scales.
       Clinicians provided medication (tissue
       plasminogen activator) timely to halt the
       stroke and included all required steps, and
       tissue plasminogen activator was in stock or
       available within 15 minutes.
       Stroke guidelines were posted in all areas
       where patients may present with stroke
       symptoms.
 X     Clinicians screened patients for difficulty         Two of the five applicable EHRs did not
       swallowing prior to oral intake of food or           contain documentation that patients were
       medicine.                                            screened for difficulty swallowing prior to oral
                                                            intake.
 X     Clinicians provided printed stroke education to     None of the 28 applicable EHRs contained
       patients upon discharge.                             documentation that written stroke education
                                                            was provided to the patient/caregiver.
 X     The facility provided training to staff involved    Fourteen employees (40 percent) had not
       in assessing and treating stroke patients.           completed the training required by the facility.
       The facility collected and reported required
       data related to stroke care.
 X     The facility complied with any additional          Facility policy on treatment of acute ischemic
       elements required by VHA or local policy.          stroke reviewed:
                                                           Six of the 29 EHRs did not contain
                                                             documented evidence of laboratory testing for
                                                             cardiac markers.

Recommendations

7. We recommended that processes be strengthened to ensure that clinicians complete and
document National Institutes of Health stroke scales for each stroke patient and that compliance
be monitored.


VA OIG Office of Healthcare Inspections                                                                   10
                                      CAP Review of the VA New York Harbor Healthcare System, New York, NY


8. We recommended that processes be strengthened to ensure that clinicians screen patients
for difficulty swallowing prior to oral intake.
9. We recommended that processes be strengthened to ensure that clinicians provide printed
stroke education to patients upon discharge and that compliance be monitored.
10. We recommended that processes be strengthened to ensure that employees involved in
assessing and treating stroke patients receive the training required by the facility and that
compliance be monitored.

11. We recommended that processes be strengthened to ensure that patients presenting with
stroke symptoms receive laboratory tests for cardiac markers and that compliance be
monitored.




VA OIG Office of Healthcare Inspections                                                                11
                                      CAP Review of the VA New York Harbor Healthcare System, New York, NY


CLC Resident Independence and Dignity
The purpose of this review was to determine whether the facility provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We reviewed 19 EHRs of residents (10 residents receiving restorative nursing services and
9 residents not receiving restorative nursing services but candidates for services). We also
observed 3 residents during 2 meal periods, reviewed 10 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                      Findings
       The facility offered restorative nursing
       services.
 X     Facility staff completed and documented            In 3 of the 10 applicable EHRs, there was no
       restorative nursing services, including active      documentation that facility staff completed
       and passive range of motion, bed mobility,          restorative nursing services according to
       transfer, and walking activities, according to      clinician orders and/or residents’ care plans.
       clinician orders and residents’ care plans.
 X     Resident progress towards restorative nursing      In 7 of the 10 applicable EHRs, there was no
       goals was documented, and interventions             evidence that facility staff documented:
       were modified as needed to promote the              o Resident progress towards restorative
       resident’s accomplishment of goals.                     nursing goals
                                                           o Modification of interventions to promote
                                                               the residents’ accomplishment of goals
 X     When restorative nursing services were care        Of the three EHRs where restorative nursing
       planned but were not provided or were               services were care planned but were
       discontinued, reasons were documented in            discontinued, two did not reflect the reasons.
       the EHR.                                           Of the nine EHRs of patients with identified
                                                           functional deficits, four did not have
                                                           documentation addressing reasons why
                                                           restorative or maintenance services were not
                                                           provided.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
 X     Training and competency assessment were            Eight employee training records did not
       completed for staff who performed restorative       contain evidence of completed training
       nursing services.                                   assessment for range of motion and/or
                                                           resident transfers.




VA OIG Office of Healthcare Inspections                                                                 12
                                      CAP Review of the VA New York Harbor Healthcare System, New York, NY


NM             Areas Reviewed (continued)                                   Findings
       The facility complied with any additional
       elements required by VHA or local policy.
           Areas Reviewed for Assistive Eating
                Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

12. We recommended that processes be strengthened to ensure that staff complete and
document restorative nursing services according to clinician orders and/or residents’ care plans
and that compliance be monitored.

13. We recommended that processes be strengthened to ensure that staff document resident
progress towards restorative nursing goals, modify restorative nursing interventions as needed,
and document the modifications and that compliance be monitored.

14. We recommended that processes be strengthened to ensure that staff document the
reasons for discontinuing or not providing restorative nursing services and that compliance be
monitored.

15. We recommended that processes be strengthened to ensure that employees who perform
restorative nursing services receive training on range of motion and resident transfers.




VA OIG Office of Healthcare Inspections                                                                13
                                      CAP Review of the VA New York Harbor Healthcare System, New York, NY


MRI Safety
The purpose of this review was to determine whether the facility ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.g

We reviewed relevant documents and the training records of 109 employees (28 randomly
selected Level 1 ancillary staff and 81 designated Level 2 MRI personnel), and we conversed
with key managers and employees. We also reviewed the EHRs of 35 randomly selected
patients who had an MRI January 1–December 31, 2013. Additionally, we conducted physical
inspections of two MRI areas, one each at the Manhattan and Brooklyn campuses. The table
below shows the areas reviewed for this topic. The area marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM                     Areas Reviewed                                       Findings
       The facility completed an MRI risk
       assessment, there were documented
       procedures for handling emergencies in MRI,
       and emergency drills were conducted in the
       MRI area.
       Two patient safety screenings were conducted
       prior to MRI, and the secondary patient safety
       screening form was signed by the patient,
       family member, or caregiver and reviewed and
       signed by a Level 2 MRI personnel.
 X     Any MRI contraindications were noted on the        Three of the eight applicable EHRs did not
       secondary patient safety screening form, and        contain documentation that all identified
       a Level 2 MRI personnel and/or radiologist          contraindications were addressed prior to
       addressed the contraindications and                 MRI.
       documented resolution prior to MRI.
       Level 1 ancillary staff and Level 2 MRI
       personnel were designated and received
       level-specific annual MRI safety training.
       Signage and barriers were in place to prevent
       unauthorized or accidental access to Zones III
       and IV.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.
       Patients were offered MRI-safe hearing
       protection for use during the scan.
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.




VA OIG Office of Healthcare Inspections                                                                 14
                                      CAP Review of the VA New York Harbor Healthcare System, New York, NY


NM             Areas Reviewed (continued)                                   Findings
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

16. We recommended that processes be strengthened to ensure that radiologists and/or
Level 2 magnetic resonance imaging personnel document resolution in patients’ electronic
health records of all identified magnetic resonance imaging contraindications prior to the scan
and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                15
                                   CAP Review of the VA New York Harbor Healthcare System, New York, NY
                                                                                            Appendix A


     Facility Profile (New York/630) FY 2014 through June 20141
Type of Organization                                                                    Tertiary
Complexity Level                                                                        1a-High complexity
Affiliated/Non-Affiliated                                                               Affiliated
Total Medical Care Budget in Millions                                                   $686
Number of:
    Unique Patients                                                                    41,913
    Outpatient Visits                                                                  503,277
    Unique Employees2                                                                  3,112
Type and Number of Operating Beds:
    Hospital                                                                           262
    CLC                                                                                179
    MH                                                                                 76
Average Daily Census (as of May 2014):
    Hospital                                                                           182
    CLC                                                                                135
    MH                                                                                 54
Number of Community Based Outpatient Clinics                                            3
Location(s)/Station Number(s)                                                           Harlem/630GA
                                                                                        Staten Island/630GB
                                                                                        Chapel Street/630GC
VISN Number                                                                             3




1
    All data is for FY 2014 through June 2014 except where noted. 

2
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                      16
                                                              CAP Review of the VA New York Harbor Healthcare System, New York, NY
                                                                                                                       Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                        17
                                                    CAP Review of the VA New York Harbor Healthcare System, New York, NY



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                              18
                                                                                             CAP Review of the VA New York Harbor Healthcare System, New York, NY


                                                                         Metric Definitions
 Measure                       Definition                                                                          Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)   A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                             A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                          A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                         A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)      A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                       A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                   A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                              A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                      A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)   A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value
 PSI                           Patient safety indicator                                                            A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                    A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                      A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction             A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                               A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction           A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure              A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                             A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                 A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                      A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)          A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                          19
                            CAP Review of the VA New York Harbor Healthcare System, New York, NY
                                                                                     Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                 Memorandum


           Date:       7/14/14

          From:        Director, VA NY/NJ Veterans Healthcare Network (10N3)

       Subject:        CAP Review of the VA New York Harbor Healthcare
                       System, New York, NY

             To:       Director, Baltimore Office of Healthcare Inspections (54BA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       Attached please find the response to the draft CAP Report for the program
       review of the VA New York Harbor Healthcare System (VANYHHS).

       The VISN concurs with the action plan submitted by the facility.




       MICHAEL A. SABO, FACHE




VA OIG Office of Healthcare Inspections                                                      20
                            CAP Review of the VA New York Harbor Healthcare System, New York, NY
                                                                                     Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                 Memorandum


           Date:       7/14/14

          From:        Director, VA New York Harbor Healthcare System (630/00)

       Subject:        CAP Review of the VA New York Harbor Healthcare
                       System, New York, NY

             To:       Director, VA NY/NJ Veterans Healthcare Network (10N3)

       This is to acknowledge receipt and review of the draft CAP report for VA
       New York Harbor Healthcare System (VANYHHS). Thank you for the
       opportunity to comment on the recommendations for improvement
       contained in this report. If you have any questions, please contact
       Kim Arslanian, the Performance Improvement manager at 718-630-2865.




       MARTINA A. PARAUDA




VA OIG Office of Healthcare Inspections                                                      21
                            CAP Review of the VA New York Harbor Healthcare System, New York, NY


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
actions from peer reviews are consistently completed and reported to the Peer Review
Committee.

Concur

Target date for completion: 10/31/14

Facility response: An excel spreadsheet of all the cases presented at the Peer Review
Committee will be included with each set of Peer Review Committee minutes. Those
cases that need follow-up will be noted as such on the spreadsheet and presented each
month to the Peer Review Committee. This change was implemented for the June
Committee minutes that will be reviewed at the July meeting, scheduled for 7/15/14.

Recommendation 2. We recommended that processes be strengthened to ensure that
the Cardiopulmonary Resuscitation Committee reviews each resuscitation code
episode.

Concur

Target date for completion: 10/31/14

Facility response: This recommendation was reviewed with the Chairpersons of the
Cardiopulmonary Resuscitation Committees (BK and NY) who agreed to review all
codes at each meeting. The Brooklyn meeting is scheduled for July 29, 2014, the NY
meeting is scheduled to meet in August, final date pending.

Recommendation 3. We recommended that the Surgical Review Group meet monthly
and include the Chief of Staff as a member.

Concur

Target date for completion: 10/31/14

Facility response: VANYHHS had identified the lack of compliance with the National
Surgery office directive prior to the OIG-CAP visit and scheduled monthly meetings to
include the Chief of Staff effective 5/13/14. The Surgical Review Group is scheduled to
meet monthly on the 2nd Tues of the month at 10am. If the Chief of Staff is not
available, his designee, the Deputy Chief of Staff will attend.




VA OIG Office of Healthcare Inspections                                                      22
                            CAP Review of the VA New York Harbor Healthcare System, New York, NY


Recommendation 4. We recommended that processes be strengthened to ensure that
all designated same day surgery and post-anesthesia care unit employees receive
bloodborne pathogens training annually and that compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: The Surgical Care Line Manager is working with the appropriate
Services and staff in the Education office to identify staff that require the pathogens
training, assign it in TMS and monitor compliance with the training.

Recommendation 5.       We recommended that the Brooklyn campus eye clinic
examination room sinks have foot controls, long-blade handles, or automatic no touch
sensors.

Concur

Target date for completion: 7/2/14

Facility response: Engineering Service ordered hands free faucets the day it was noted
by the OIG. The faucets were replaced on 7/2/14.

Recommendation 6. We recommended that the Manhattan campus eye clinic have
glasses/goggles of the appropriate optical density available that are specifically marked
for each type of laser and that compliance be monitored.

Concur

Target date for completion: 9/30/14

Facility response: Eye clinic staff will research and order the appropriate goggles. The
goggles will be labeled as to their optical density and use monitored.

Recommendation 7. We recommended that processes be strengthened to ensure that
clinicians complete and document National Institutes of Health stroke scales for each
stroke patient and that compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: Prior to the OIG visit, VANYHHS was aware of the lack of full
compliance with the VHA Acute Ischemic Stroke Directive. Staff were newly assigned
as the Stroke Directors. They began meeting with key staff. Those meetings led to
revisions of the Stroke policy, that were approved in May and monthly monitoring of the
required documentation including the documentation of the National Institutes of Health
stroke scale. Monthly monitoring will continue.



VA OIG Office of Healthcare Inspections                                                      23
                            CAP Review of the VA New York Harbor Healthcare System, New York, NY


Recommendation 8. We recommended that processes be strengthened to ensure that
clinicians screen patients for difficulty swallowing prior to oral intake.
Concur

Target date for completion: 12/31/14

Facility response: The Acute Ischemic Stroke (AIS) policy was revised to assign to the
stroke first responder (ER physician or RRT resident) responsibility for completion and
documentation of the dysphagia screen. The revised AIS policy will be reviewed with
Emergency Room staff and RRT residents. Physician templates in CPRS are being
modified to facilitate documentation. Compliance will be monitored during the monthly
chart review of AIS cases.

Recommendation 9. We recommended that processes be strengthened to ensure that
clinicians provide printed stroke education to patients upon discharge and that
compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: VANYHHS’ Stroke policy was recently revised to include the
requirement to provide printed stroke education to patients upon discharge. The stroke
team is planning to meet to discuss strategies to improve this process.

Recommendation 10. We recommended that processes be strengthened to ensure
that employees involved in assessing and treating stroke patients receive the training
required by the facility and that compliance be monitored.
Concur

Target date for completion: 12/31/14

Facility response: The current RRT training in TMS was revised to include information
on stroke awareness and recognition. For staff who work in patient care units
designated for the care of stroke patients including the ERs and ICUs, they were
assigned an additional Stroke Recognition Training (TMS # 14554) with the assignment
date of June 5, 2014. Compliance with training completion will be monitored through
TMS reports.

Recommendation 11. We recommended that processes be strengthened to ensure
that patients presenting with stroke symptoms receive laboratory tests for cardiac
markers and that compliance be monitored.

Concur

Target date for completion: 12/31/14



VA OIG Office of Healthcare Inspections                                                      24
                            CAP Review of the VA New York Harbor Healthcare System, New York, NY


Facility response: The Stroke team will be meeting with the Chief of the Emergency
department to develop a process to ensure that patients presenting with stroke
symptoms receive laboratory testing for cardiac markers through the development of a
stroke order set that includes cardiac markers.

Recommendation 12. We recommended that processes be strengthened to ensure
that staff complete and document restorative nursing services according to clinician
orders and/or residents’ care plans and that compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: Nursing staff will complete and document restorative nursing services
according to clinical orders and/or residents’ care plans beginning 8/31/14. Compliance
will be monitored by reviewing the medical record of all residents on restorative.

Recommendation 13. We recommended that processes be strengthened to ensure
that staff document resident progress towards restorative nursing goals, modify
restorative nursing interventions as needed, and document the modifications and that
compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: Residents’ progress towards restorative nursing goals, modifying of
restorative nursing interventions as needed and documentation modification will be
documented by Nursing staff beginning on 8/31/14. Compliance will be monitored by
reviewing the medical record of all residents on restorative nursing.

Recommendation 14. We recommended that processes be strengthened to ensure
that staff document the reasons for discontinuing or not providing restorative nursing
services and that compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: Nursing staff will document the reason for discontinuing or not
providing restorative nursing services beginning 8/31/14. Compliance will be monitored
by reviewing the medical records of all residents on restorative nursing.




VA OIG Office of Healthcare Inspections                                                      25
                            CAP Review of the VA New York Harbor Healthcare System, New York, NY


Recommendation 15. We recommended that processes be strengthened to ensure
that employees who perform restorative nursing services receive training on range of
motion and resident transfers.

Concur

Target date for completion: 8/31/14

Facility response: Nursing staff that perform restorative nursing services will receive
training on range of motion and/or resident transfer by 8/31/14.

Recommendation 16. We recommended that processes be strengthened to ensure
that radiologists and/or Level 2 magnetic resonance imaging personnel document
resolution in patients’ electronic health records of all identified magnetic resonance
imaging contraindications prior to the scan and that compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: The MRI screening form was revised to improve compliance when
positive screens are noted. The format was also changed to highlight issues with high
risk patients. Radiology supervisory staff will begin monitoring medical record
documentation to ensure that identified MRI contraindications are documented prior to
the scan. Radiology techs will be required to enter an ePer for all cases where there
was a known or potential contraindication to MRI so that it can be tracked and reviewed
by Radiology.




VA OIG Office of Healthcare Inspections                                                      26
                            CAP Review of the VA New York Harbor Healthcare System, New York,, NY
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Sonia Whig, MS, LDN, Team Leader
Contributors            Jennifer Christensen, DPM
                        Laura Dulcie, BSEE
                        Terri Julian, PhD
                        Melanie Oppat, MEd, LDN
                        Julie Watrous, RN, MS
                        Chris Wagner, Special Agent, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Margie Chapin, RT (R, MR, CT), JD
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Nathan McClafferty, MS
                        Patrick Smith, M. Stat
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       27
                            CAP Review of the VA New York Harbor Healthcare System, New York, NY
                                                                                     Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA NY/NJ Veterans Healthcare Network (10N3)
Director, VA New York Harbor Healthcare System (630/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Kirsten E. Gillibrand, Charles E. Schumer
U.S. House of Representatives: Yvette D. Clarke, Joseph Crowley, Michael Grimm,
 Hakeem Jeffries, Carolyn Maloney, Carolyn McCarthy, Gregory W. Meeks,
 Grace Meng, Jerrold Nadler, Charles B. Rangel, José E. Serrano, Nydia M. Velázquez


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      28
                                CAP Review of the VA New York Harbor Healthcare System, New York, NY
                                                                                         Appendix G

                                                Endnotes

a
   References used for this topic included:

   VHA Directive 2009-043, Quality Management System, September 11, 2009. 

   VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011. 

   VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010. 

   VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010. 

   VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation 

    Beds, March 4, 2010.
 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 VHA Directive 6300, Records Management, July 10, 2012.
 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
   References used for this topic included:
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
    Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
    American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
    and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
   References used for this topic included:

 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.

 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006. 

 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.

 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012. 

 Manufacturer’s instructions for Cipro® and Levaquin®.

 Various requirements of The Joint Commission.
 
d
   References used for this topic included:

 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements, 

    July 29, 2009.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
   The references used for this topic were:
 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
    January 31, 2013.
f
   References used for this topic included:
 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
    Manual, Version 3.0, May 2013.
 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                         29
                                    CAP Review of the VA New York Harbor Healthcare System, New York, NY



g
    References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
    Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
    February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
    http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.




VA OIG Office of Healthcare Inspections                                                                          30
